<html>
<title> - LEGISLATIVE REVIEW OF H.R. 1511, THE HOMELESS CHILDREN AND YOUTH ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                           LEGISLATIVE REVIEW
                       OF H.R. 1511, THE HOMELESS
                     CHILDREN AND YOUTH ACT OF 2017

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         HOUSING AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 6, 2018

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-97



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-473 PDF                WASHINGTON : 2018                 

















                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                     Shannon McGahn, Staff Director
                 Subcommittee on Housing and Insurance

                   SEAN P. DUFFY, Wisconsin, Chairman

DENNIS A. ROSS, Florida, Vice        EMANUEL CLEAVER, Missouri, Ranking 
    Chairman                             Member
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
STEVAN PEARCE, New Mexico            MICHAEL E. CAPUANO, Massachusetts
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
BLAINE LUETKEMEYER, Missouri         BRAD SHERMAN, California
STEVE STIVERS, Ohio                  STEPHEN F. LYNCH, Massachusetts
RANDY HULTGREN, Illinois             JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DANIEL T. KILDEE, Michigan
LEE M. ZELDIN, New York              JOHN K. DELANEY, Maryland
DAVID A. TROTT, Michigan             RUBEN KIHUEN, Nevada
THOMAS MacARTHUR, New Jersey
TED BUDD, North Carolina




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    June 6, 2018.................................................     1
Appendix:
    June 6, 2018.................................................    27

                               WITNESSES
                        Wednesday, June 6, 2018

Berg, Steve, Vice President for Programs and Policy, National 
  Alliance to End Homelessness...................................     6
Duffield, Barbara, Executive Director, SchoolHouse Connection....     4
Lilley, Kat, Deputy Executive Director, Family Promise of 
  Colorado Springs...............................................     8
Rounsville, Millie, Chief Executive Officer, Northwest Wisconsin 
  Community Services Agency......................................     9

                                APPENDIX

Prepared statements:
    Berg, Steve..................................................    28
    Duffield, Barbara............................................    32
    Lilley, Kat..................................................    57
    Rounsville, Millie...........................................    66

              Additional Material Submitted for the Record

Rothfus, Hon. Keith:
    Written statement from HEARTH................................    72

 
                           LEGISLATIVE REVIEW
                       OF H.R. 1511, THE HOMELESS
                     CHILDREN AND YOUTH ACT OF 2017

                              ----------                              


                        Wednesday, June 6, 2018

                     U.S. House of Representatives,
                                    Subcommittee on Housing
                                             and Insurance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2128, Rayburn House Office Building, Hon. Sean P. Duffy 
[chairman of the subcommittee] presiding.
    Present: Representatives Duffy, Posey, Luetkemeyer, 
Stivers, Hultgren, Rothfus, Trott, Hensarling, and Cleaver.
    Also present: Representatives Green and Moore.
    Chairman Duffy. The Subcommittee on Housing and Insurance 
will come to order.
    Today's hearing is entitled, ``Legislative Review of H.R. 
1511, the Homeless Children and Youth Act of 2017,'' though it 
is 2018.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Without objection, all members will have 5 legislative days 
within which to submit extraneous materials to the Chair for 
inclusion in the record.
    Without objection, members of the full committee who are 
not members of this subcommittee may participate in today's 
hearing for the purpose of making an opening statement and 
questioning our witnesses.
    The Chair now recognizes himself for 3 minutes for an 
opening statement.
    First, I want to thank our witnesses for participating in 
today's hearing on homelessness.
    A few weeks ago, members of this committee convened for an 
overall review of homelessness in America. I thought it was a 
great hearing. Witnesses discussed how homelessness looks 
different in urban areas versus rural areas. We heard how the 
Point-in-Time, or PIT, is utilized by HUD (U.S. Department of 
Housing and Urban Development) to provide a snapshot of 
homelessness levels from one year to the next.
    We are here today to dive a little deeper into the 
definition of homelessness. More specifically, we will look to 
uncover how HUD's definition is creating barriers in impacting 
our Federal Government's ability to keep our families out of 
poverty.
    As I read our witnesses' statements today, it became 
apparent on two different issues. First, the PIT numbers that 
HUD uses to give us a picture of homelessness year over year 
seems to be a misrepresentation of the entire or complete 
picture. Why doesn't it paint a whole picture? I think that is 
going to be the question that all of you are going to throw our 
way in your testimony today and by way of the questions we are 
going to ask you.
    I expect to hear that you are going to talk about certain 
homeless populations that go uncounted because they live in 
tents in the woods or they couch-surf or simply don't want to 
admit their family is homeless for fear of losing their 
children. The last thing we want to have is people that hide 
from the reality of their living situation because of the 
potential the Federal or State Government might take away their 
kids.
    All of these reasons are familiar because of the same 
reasons you don't choose--or we don't see homelessness in our 
rural communities, and it is a problem. And I think taking a 
deeper dive on this issue to make sure we can expose and shed 
light on it is critical and key.
    The most jarring fact in today's testimony is HUD's 
definition of homelessness doesn't match the definition used by 
other Federal agencies. We have seen this in several Government 
programs. We tend to amend the law by passing various bills 
over the years, and the Federal Government ends up with 
different definitions for the same subject matter, which 
obviously creates complication and confusion. We need to make 
sure that the definition of homelessness is uniform throughout 
all of our Federal programs.
    As a father of eight--one that is 18 and one that is 2 and 
everywhere in between--I was touched by the testimony of one of 
our witnesses who discussed how she had gone through to support 
her six children while trying to navigate the definition of 
homelessness. It is a testimony and a statement of strength.
    I believe her story, along with the testimony of others, 
will shine a light on why we need to address HUD's definition 
of homelessness to make sure we are doing all we can to improve 
the plight of our impoverished families.
    And I do want to thank you all for being here today. I am 
looking forward to this hearing.
    And I want to now recognize the gentleman from Missouri, 
the Ranking Member, for 3 minutes. And if he wants more, I will 
give him more.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Thank those of you who have come to provide us with some 
information that we will need in trying to deal with this 
issue.
    The hearing today is a legislative hearing focused on H.R. 
1511, the Homeless Children and Youth Act of 2017. This bill 
would expand the definition of homelessness to include more 
children who lack stable homes. Currently, homelessness under 
HUD is defined under the parameters of the HEARTH Act, which 
defines a homeless person as someone who lacks a fixed 
nighttime residence. The definition is targeted to help those 
in greatest need.
    H.R. 1511 would also make several restrictions on HUD, 
including limiting HUD's ability to set national housing 
priorities or incentivize Continuum of Care (COC) programs to 
use housing models that rely on evidence-based practices.
    The Housing and Insurance Subcommittee recently held a 
quite necessary and appropriate hearing on the state of 
homelessness in the country. And though the overall 
homelessness rate has, in fact, been decreasing--and that is 
always good news, yet homelessness remains an issue of critical 
concern, one that should remain a priority for our committee.
    According to the National Alliance to End Homelessness, on 
a single night, an estimated 184,661 people in families, or 
57,971 family households, were identified as homeless, and 
almost 17,000 people and families were living on the street in 
a car or in another place not meant for human habitation. It is 
estimated that there are 550,000 homeless people in the United 
States.
    But here is the rub, as it relates to this legislation. Due 
to Federal funding limitations, hundreds of homeless 
individuals and families are unable to access resources, and 
waiting lists for services are already far too long. Only a 
fraction of children who would fall under HUD's current 
definition of homeless are able to be served by HUD.
    Expanding the definition of homelessness, though well-
intentioned--and I support the effort, but this expansion could 
add millions of people to already strained waiting lists. 
Without providing additional funding, this proposal could make 
it even more difficult for children already on waiting lists to 
receive help from housing.
    Housing our Nation's children should be at the forefront of 
our national priorities. This shouldn't be a fleeting 
conversation but one both sides of the aisle should commit to.
    Thank you, Mr. Chairman. I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, the 
author of 1511, the subject of today's hearing, Mr. Stivers, 
for 2 minutes.
    Mr. Stivers. Thank you, Mr. Chairman. I really appreciate 
you holding this hearing on our bipartisan bill, H.R. 1511, the 
Homeless Children and Youth Act.
    First, I want to thank each of the witnesses for joining us 
today. While we may not all agree on everything, I certainly 
admire your dedication to combating homelessness, all of you.
    This hearing, I think, will highlight the discrepancies 
between the definition of homelessness used by different 
Federal agencies and different programs.
    Most Americans would consider Housing and Urban Development 
to be the flagship agency in the effort to prevent 
homelessness. Consequently, they might be surprised to learn 
that it uses the most restrictive definition of homelessness, 
one that denies vulnerable children who are couch-surfing or 
living off the generosity of family and friends or children who 
are living day to day out of motels--those folks are denied the 
definition of homelessness because of how their homelessness is 
being served. Let me be clear: These children are homeless, and 
they deserve our help.
    But data from Head Start and the National Center for 
Homelessness Education indicate that the problem is getting 
worse, with 1.3 million children experiencing homelessness from 
2015 to 2016, a 3.5-percent increase. But if you search for 
these kinds of kids in HUD's homelessness statistics, you won't 
find them, because they are not included in the definition.
    I understand the point of the Ranking Member about 
resources. But if we can't get the number right, we can't know 
what the resources need to be. I am fully supportive of getting 
more resources, but we have to get the count right.
    I think my bill would bring visibility to these children, 
give our communities more flexibility so they could choose how 
to address this growing problem, and give policymakers the 
information they need to get the resources that we need to 
combat homelessness.
    Mr. Chairman, I appreciate your time. I appreciate you 
holding this hearing. And I look forward to the information 
coming out.
    I yield back.
    Chairman Duffy. The gentleman yields back, and I appreciate 
his work on this important issue.
    I now want to welcome our panel of witnesses.
    First, we have Ms. Barbara Duffield, Executive Director of 
SchoolHouse Connection; second witness, Mr. Steve Berg, Vice 
President of Programs and Policy at the National Alliance to 
End Homelessness, who has been a great partner on this issue.
    Thank you.
    Our third witness is Kat Lilley, Deputy Executive Director 
of Family Promise of Colorado Springs.
    Welcome.
    And, finally, our fourth witness is Ms. Millie Rounsville, 
CEO of the Northwest Wisconsin Community Services Agency, based 
out of the great city and the great State of Superior, 
Wisconsin.
    Welcome.
    The witnesses will in a moment be recognized for 5 minutes 
to give an oral presentation of their written testimony. 
Without objection, the witnesses' written statements will be 
made part of the record following their oral remarks.
    Once the witnesses have finished presenting their 
testimony, each member of the subcommittee will have 5 minutes 
within which to ask the panel questions.
    I would just note that on your table you have three lights. 
Green obviously means go, yellow means you have a minute left, 
and red means your time is up. We will try to be cognizant of 
our time. You also, please, try to be cognizant of the 5-minute 
limit as well.
    Your microphones are sensitive. Make sure they are on and 
you are speaking directly into them.
    With that, Ms. Duffield, you are recognized for 5 minutes 
for an oral presentation of your written testimony.

                  STATEMENT OF BARBARA DUFFIELD

    Ms. Duffield. Good morning, Chairman Duffy, Ranking Member 
Cleaver, and members of the subcommittee. Thank you for the 
opportunity to provide this testimony today.
    I worked at the Intersection of Homelessness and Education 
for nearly 25 years, and I have witnessed many improvements 
over that time. But HUD's definition of homelessness and its 
national priorities have created real barriers to helping 
homeless children and youth. As a result, we are perpetuating 
homelessness. We are guaranteeing that homelessness will 
continue indefinitely. The Homeless Children and Youth Act will 
help ensure that today's homeless children and youth do not 
become tomorrow's homeless adults.
    Let me put this debate in context. I worked with a student 
who stayed in a house with 11 adults and 4 children because her 
mother was mentally ill and kicked her out. All the adults in 
the house used cocaine. Many of them worked in the strip club. 
The student provided childcare in exchange for a roof over her 
head. But she said this was better than other situations she 
had been in because ``a lot of guys wanted to get something out 
of you.'' She was in high school.
    As this committee knows, Federal agencies do use different 
definitions of homelessness. And with few exceptions, in 
practice, the HUD definition only includes people living in 
shelters or outdoors. Under HUD's definition, the student I 
described is not homeless.
    In contrast, the definition used by the Department of 
Education and other Federal agencies includes children and 
youth who are staying in motels or are staying temporarily with 
others due to loss of housing, economic hardship, or a similar 
reason.
    This definition reflects reality. Schools are present in 
every community, even those without shelters, even those where 
shelters are full. So, contrary to the picture painted by HUD, 
school numbers have increased by 34 percent since the end of 
the recession, now totaling 1.3 million homeless students. Head 
Start homeless numbers have nearly doubled.
    And new research shows that child homelessness often leads 
to youth homelessness and then to adult homelessness, where 
children of homeless adults may start this life again. HUD's 
definition contributes to this damaging cycle by preventing 
some of the most vulnerable homeless children and youth from 
accessing services. Also, it keeps them invisible, which limits 
both public and private action.
    Make no mistake, the children and youth who meet 
Education's definition are every bit as vulnerable as those who 
meet HUD's definition. And my written testimony documents the 
same poor academic, health, and mental health outcomes of all 
homeless students regardless of where they sleep.
    It also shows how frequently families and youth move 
between Education homeless and HUD homeless. In fact, when I 
described this debate to a remarkable young woman who stayed in 
all sorts of homeless situations, her response to me was, ``The 
open sky never made me bleed.''
    Yet homeless children and youth who don't meet HUD's 
definition are barred from even being assessed. The Homeless 
Children and Youth Act would allow children and youth whose 
homelessness has been verified by one of eight Federal programs 
to be assessed for services rather than basing their 
eligibility very simplistically on where they happen to find a 
place to sleep.
    Just last week, we tried to assist a young couple with a 
toddler who are expecting their second child. They are staying 
in a toxic household with other people. They will be kicked out 
in a month. They have nowhere to go. But Coordinated Entry in 
their community said they weren't in a place from which they 
could get evicted, so they are not eligible for prevention 
assistance. And they don't meet HUD's definition of 
homelessness, so they aren't eligible for homeless assistance. 
But under the Homeless Children and Youth Act, an early Head 
Start program could verify the family's homelessness and they 
could be assessed. So the trajectory of four lives, including 
their unborn child, could change for the better.
    But beyond definitions, HUD has deprived communities of the 
flexibility that they need by creating strong national 
incentives for housing models in certain populations. They 
don't meet all communities' needs. The high school student I 
worked with, she couldn't benefit from Rapid Re-Housing. She is 
too young to sign a lease. Rapid Re-Housing is failing many 
families who become homeless again, but they don't show up in 
HUD's metrics. Meanwhile, program models that have been 
successful in helping families leave homelessness and sustain 
their housing have been defunded.
    The Homeless Children and Youth Act would remedy this one-
size-fits-all approach with scoring that is primarily based on 
the extent to which projects meet priorities in a local plan 
and are cost-effective to the local plan. In this way, it 
allows communities to respond flexibly to new challenges and 
opportunities.
    Please know that the Homeless Children and Youth Act has 
broad support from organizations that work directly with 
homeless children and youth. And we ask you to enact it so that 
homelessness will cease to rob millions of children, youth, and 
adults of their full human potential.
    Thank you.
    [The prepared statement of Ms. Duffield can be found on 
page 32 of the Appendix.]
    Chairman Duffy. Thank you, Ms. Duffield.
    Mr. Berg, you are recognized for 5 minutes.

                     STATEMENT OF STEVE BERG

    Mr. Berg. All right. Thank you, Chairman Duffy and members 
of this subcommittee and the committee.
    I want to start by saying we at the National Alliance to 
End Homelessness and I personally have worked with this 
committee for many, many years on this very difficult issue, 
and I thank you all for your devotion to dealing with it and to 
finding things that are really going to work.
    I would especially like to address Congressman Stivers. We 
literally 15 years ago identified Columbus, Ohio, as one of the 
places that leads the country in a new approach to homelessness 
that could actually start getting results, really based on 
going beyond just funding a bunch of individual programs and 
empowering a community-wide system that would look at data, 
look at what really works, make decisions about how to allocate 
scarce resources and get results. And Columbus has continued to 
do that.
    We work very closely with people at a community shelter 
board who oversee this process in Columbus. They, I know, 
regard you as an ally in this work. And even though we disagree 
on this particular bill, we can work through that, but we also 
regard you as an ally in this. And I thank you for your work on 
this.
    This is a crucial time on the issue of homelessness, as all 
of you may be aware. But as the HEARTH Act has become fully 
implemented and has--and the good practices both that are 
incentivized by the HEARTH Act and that are incentivized by, 
say, the homeless programs in the veterans world, communities 
are finding that they are getting better and better results. 
The kind of results that Columbus was getting 15 years ago are 
now more common in communities, in terms of people who are on 
the streets quickly being housed.
    At the same time, because of where we are in the short-term 
business cycles and longer-term issues of housing, the problem 
of affordable housing in the country is getting far, far worse, 
so that one effect of that is that people are pouring into the 
homelessness system. So, even as communities of care to do 
better, they are dealing with more and more people in their 
community who are falling into that system. This is a time we 
need to be doing our very best work. And we need support from 
everybody in Congress to do that.
    This particular bill, the concerns we at the Alliance have 
about this bill are mainly around eligibility rules for the 
Continuum of Care. The Continuum of Care is the primary 
homeless program at HUD. It accounts for 4 percent of HUD 
spending, so it is a small program. It has, however, a very 
important role to play. As it was overhauled by the HEARTH Act 
in a bipartisan manner, it has become what is driving 
communities--through the competitive grant process, driving 
communities to get better results and to focus on the people 
who have the most severe and immediate problems.
    Much of what the HEARTH Act did was to make changes in who 
is eligible for the program, the definition of homelessness, 
but particularly as it relates to who is eligible. People who 
are in housing, who are sleeping in an apartment or a house, 
but who are in immediate danger because the house they are 
sleeping in is a drug den, because they are victims of domestic 
violence, because they are dealing with all kinds of truly 
dangerous situations, those are all eligible for the Continuum 
of Care right now. You don't need to change anything to make 
them eligible. You need to change the funding levels in order 
to have enough money to actually address the whole problem, but 
the eligibility rules don't need to change.
    The problem with this bill's large expansion of the 
definition is that it will, at best, overwhelm systems that 
communities have for determining how to allocate the scarce 
resources of the homeless programs, and, at worst, it will mean 
that the worst-off people, the people in the gravest immediate 
danger, will have a harder time getting help because they will 
be out-competed for the resources by people who have a little 
more stable situation, living with relatives or friends or 
family.
    The work that HUD has done on this has been very responsive 
to what Congress has told HUD to do. And the report language 
from this committee, from the Appropriations Committee over 
many years has been very clear that HUD needs to find out what 
kind of interventions are doing the best work, are getting the 
best results, and then make sure communities are using the 
money for those. This bill moves in exactly the opposite 
direction, and that is the other concern besides the 
eligibility rules.
    So I am happy to answer questions about this. I can come 
and see you in your office if you have other questions. But 
thank you again.
    [The prepared statement of Mr. Berg can be found on page 28 
of the Appendix.]
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes Ms. Lilley for 5 minutes.

                     STATEMENT OF KAT LILLEY

    Ms. Lilley. I would like to thank the committee for 
allowing me to come here and speak today. It truly is an honor 
to be able to be here.
    In my written testimony, I highlighted my personal story 
with you all. I didn't do that lightly. It is hard to relive 
the time that I experienced homelessness with my six children. 
I did it because I think you really needed to understand the 
vulnerability that exists prior to meeting the definition of 
HUD homelessness.
    I highlighted for you what my family and I went through 
months leading up to homelessness, weeks leading up to 
homelessness, and the day that I finally hit the threshold for 
the HUD definition of homelessness.
    What I can tell you is that, had any of the other avenues 
that I pursued for my family for housing prior to entering 
shelter come through, I would not be sitting here today. I 
would not be working in the homeless industry. I would not be 
successful.
    And I can tell you that because, while Mr. Berg is well-
informed on policy, he is not on the ground level. He is not 
seeing what these families are living in. I reached out to 
situations that I knew were dangerous for my family, looking 
for four walls to keep us out of a shelter. I reached out to a 
biological family member who had a registered sex offender 
living in their home, begging for a floor to sleep on. Had they 
told me yes, I would have been there in a heartbeat, because I 
believed and I know that there are families in all of our 
communities that believe dealing with the dangers we know is 
safer than dealing with the dangers that are unknown in the 
shelter system.
    In my work now, providing care to families and children who 
are experiencing homelessness, I am out in the community. I am 
an active member of our COC, and because I have six children, I 
am active in a number of school systems. I see the 
vulnerability in our community. I know that we have families 
who are living in situations that are dire.
    Just 3 weeks ago, I was in a motel room with a family of 
five who had been living there for 4 months. I sat down on the 
bed, and it was wet. It is what the motel had for them. There 
were lice, there were cockroaches, there were bugs. The 3-year-
old showed me her little bed on the floor. She had what she 
called a nest. There were blankets, there was a pillow, and 
there were bugs. It was a horrendous situation.
    While we were sitting there and we were talking, there was 
a banging on the door. It was a neighbor in the motel room. He 
was upset that last night the baby had been crying and was 
going to go talk to management to see if they could be put out 
of the motel although they had paid for this week.
    These are not situations children should be living in. 
These are not safe situations.
    And contrary to what Mr. Berg tells you, this family is not 
eligible for COC services. If we do a VI-SPDAT, or a 
Vulnerability Index, on this family, they are going to be told, 
``You have one recourse. We may offer you one service. We can 
rapidly re-house you or assist you with prevention.'' This 
family is not suitable. Their vulnerability does not meet a 
successful outcome for us to put them in a place that they 
can't afford and say, ``We are going to provide you with 
limited assistance, limited services, and we are not going to 
address the vulnerability that brought you here.'' We are 
setting them up to fail.
    This is happening nationally. Family Promises across the 
Nation in 43 States can give you hundreds and hundreds and 
hundreds of stories where this is true.
    The biggest pushback to the bill is that it is going to 
overwhelm the system or that it is a funding issue. This isn't 
a funding issue. This is an issue that, while we are saying 
Continuum of Cares are prioritizing the most dire situations, 
they are excluding some of the most vulnerable and dire 
situations.
    We are not asking to bump chronic homeless people down on 
the list. We are not asking to bump people without shelter down 
on the list. We are asking you to include individuals who are 
truly being victimized because of their situations on the list. 
We are asking you to prioritize them the same way you 
prioritize the people who don't have shelter at this time.
    Honestly, my vulnerability was lower when I was in shelter 
than it would have been had I been doubled up or in a motel. 
And we are just asking that you consider that issue and move 
forward with this.
    Our PIT counts are inaccurate. Because they are inaccurate 
and because we are continuing to leave families invisible, we 
don't know the trends that are going on in family and youth 
homelessness. We can't say that family homelessness is going 
down just by sticking our head in the sand and not counting 
individuals that are truly vulnerable and homeless.
    I thank you for this time, and I am open to questions at 
the end of this. Thank you.
    [The prepared statement of Ms. Lilley can be found on page 
57 of the Appendix.]
    Chairman Duffy. Thank you, Ms. Lilley.
    Ms. Rounsville, you are recognized for 5 minutes.

                 STATEMENT OF MILLIE ROUNSVILLE

    Ms. Rounsville. Thank you, Mr. Duffy and Mr. Cleaver, for 
the opportunity to come here and speak. This is a conversation 
we have on a local level, so I am happy to be able to be here 
in front of a larger audience and to see that a lot of the 
things that I am seeing locally are also agreeing with Ms. 
Lilley's community.
    I am the Director of Northwest Community Services Agency. 
We are what is called a community action program. We have been 
providing services to low- and moderate-income throughout our 
five-county service area for the last--over 50 years now. Being 
as we are community action, we do prioritize vulnerable 
populations, low-income populations, and, unfortunately, for 
our service area, homelessness is a large part of that world.
    On the local level, as homeless service providers, we work 
well together. We work with our school districts, we work with 
our local units of Government, our Head Start agency, our 
faith-based partners. And we truly pull together a toolkit to 
try to accommodate those needs.
    From a geologic perspective, my service area covers 8,000 
square miles. In that 8,000 square miles, we only have 90,000 
people. We probably have more trees than we do population. Our 
agency has served as the lead in terms of the HUD world, the 
ESG (Emergency Solutions Grants) world, those sort of things. 
And it predominantly has to do with capacity and the 
requirements that come with receipt of those Federal funds.
    We in the city of Superior are fortunate that we have three 
shelter facilities. We have a homeless men's shelter that is 
operated by our organization. We have a family shelter that is 
operated by one of our faith-based partners. And then we have a 
domestic violence shelter. In Ashland, which is 70 miles away, 
we also have a domestic violence shelter.
    But that is it. Throughout the rest of our service area, we 
are relying on hotel vouchers to try to prevent individuals 
from sleeping in their cars, sleeping in the campsites. It is 
cold. It is 40 below. Anybody that we can get sheltered on our 
Point-in-Time counts, we bring our faith-based partners, they 
issue hotels.
    The reason I bring this up is related to some of the Point-
in-Time data that has been discussed--is a lot of our 
homelessness numbers and the homeless needs going up and down 
are based on those PIT numbers, and they are also based on the 
HMIS data. And for our service area, to try to go out and cover 
that 8,000-square-mile area between 11 at night and 6 in the 
morning, finding people that are living in campsites, we have 
two reservations that we need to cover, those numbers aren't 
truly accurate in terms of what our community looks like on a 
given night.
    In terms of the homeless information database, which is a 
requirement with HUD, our organization, along with our family 
shelter, are the only two organizations that are entering data 
into that system. So if we were looking at, from a community 
level, what the homeless needs are in northwest Wisconsin and 
the number is going up and down, it is not reflective of 50 
percent of our shelters because they are domestic violence, it 
is not reflective of our faith-based partners that are 
providing services, and as we have discussed earlier, it 
doesn't include the number of homeless identified through our 
school districts and our Head Start agencies.
    One of the things that this bill would allow would be local 
flexibility. In our service area, our needs are similar in 
terms of the families, people that are being placed in foster 
care, the families that are doubled up because there is no 
shelter availability.
    The Continuum of Care process, while it is important and it 
does fund a variety of services in our country, I believe, 
looks very different in our part of the country than it may in 
some other parts of the country.
    I provide a lot of written testimony, so I am trying to 
focus my oral on things that may be a better use of your time.
    But in the State of Wisconsin, we have 72 counties. HUD 
recognizes four Continuum of Cares. So our bigger cities--
Racine; Dane, which is Madison; and Milwaukee--HUD designates 
those as their own Continuum of Care. Our northern five 
counties is what is called the Balance of State Continuum of 
Care. So, on the ground level, there are 21 local groups: 
Myself representing my 5 counties; Duana Bremer that was here a 
few weeks ago representing her service area. But we compromise 
what is the Balance of State Continuum of Care.
    So, as this process started many years ago--I have been 
involved in this process for 21 years--the Continuum of Care 
was designed to meet homeless needs. There was a pro rata need 
that was established by counties. We started a lot of 
supportive services-only programs, transitional housing 
programs, things that are identified locally as a need.
    As this evolution in time has changed, the only new 
programs that communities are able to apply for is permanent 
supportive housing. And, in our case, we don't have enough 
chronically homeless meeting that definition in our rural 
areas. And what has been happening in reality is we have had 
larger cities that are having more services available for 
chronic homeless, which is great--that is their need; people 
are being housed--but what we are doing is we are continually 
taking away services from our rural communities, and we have 
less services available to meet the needs of the families that 
we are working with.
    So I do see I am over time. I will pause there. I will be 
available for questions.
    [The prepared statement of Ms. Rounsville can be found on 
page 66 of the Appendix.]
    Chairman Duffy. Thank you, Ms. Rounsville.
    And I want to thank the panel for their testimony.
    The Chair now recognizes himself for 5 minutes.
    Just a brief note. I am sorry, I--we defend the 
bureaucracy, we defend the status quo and argue for more money. 
I don't think that answer actually works. You can argue for 
more money. I get that. But also say, is the system actually 
working? Are we actually effective with the dollars that we 
use? Because with $21 trillion in debt, it is fair to come back 
and say, ``I need more, because I am using the dollars that you 
have given me really well right now,'' but if we can't look at 
how we are actually using today's dollars, how do we come back 
and ask for more?
    And I think that is the point of this conversation. How are 
we using our current dollars? Let's use them well. And if there 
is more that is needed, let's fight for more money to help 
those who have fallen into homelessness.
    Ms. Rounsville, as you might know, I was the D.A. in 
Ashland County, which covers your area, and have dealt with the 
women's shelter, and it is a great facility.
    But you made a comment about how money might flow into the 
Dane County area, Madison, and maybe a little less up north in 
the rural part. And is that because you have been so effective 
in addressing homelessness and they haven't been effective in 
Dane County, or is something else happening in how money is 
distributed?
    Ms. Rounsville. I would be happy to cover that.
    It is actually multifold. So, in our rural areas, we don't 
have United Way dollars. We don't have entitlement communities. 
We are piecemealing packages together.
    One of our largest funding sources for the shelter side, 
such as New Day that you referenced, is the ESG money through 
the State. Based on one of their formula allocations, the 
dollars are divided up throughout the State of Wisconsin based 
on things such as your homeless counts.
    As I referenced earlier, when people aren't using HMIS, the 
numbers go down. As the numbers go down, I am issuing less 
hotel vouchers. I am the one entering into HMIS. Thus, next 
year we have a lower allocation, we have less resources.
    On the Continuum of Care side, it is that 69 counties that 
are submitting an application. So it is all 69 counties looking 
at in terms of competing nationally to bring resources into our 
State following HUD's priorities, getting the extra points on 
the application to keep serving homeless throughout that 69-
county area.
    The needs of us in northern Wisconsin, while they are 
important, we don't have a high population of chronic homeless. 
One of HUD's priority areas is serving chronic homeless. And 
there are pockets throughout the State that do have a need to 
serve chronic homeless. So those resources are coming into our 
State and enhancing services in those areas, but we are no 
longer able to apply for transitional housing, which works 
well. And then we lost a transitional housing program this last 
round, so we are only going to have one COC-funded project left 
in our service area.
    But that is what is happening, is, as they are prioritizing 
specific populations, the more urban areas that have that 
population are able to access those dollars, as opposed to we 
don't have an opportunity to apply for a transitional housing 
program, which would better meet our needs.
    Our Rapid Re-Housing that we fund with the ESG and the 
State dollars, we have people that come up on our priority 
list, but if you are in a town like Ashland and you have 
something on your background or you have been evicted by one of 
the property owners, nobody is going to give you a lease. It 
wouldn't matter if you had dollars available.
    Chairman Duffy. Just quickly, the Point-in-Time counts, are 
those accurate? Do you--
    Ms. Rounsville. No.
    Chairman Duffy. --think they get--they don't. And does that 
affect your funding?
    Ms. Rounsville. Well, HUD says you have to cover your 
geographic footprint. Does anybody here think they could cover 
8,000 square miles in 7 hours? I mean--and especially in the 
wintertime. We have two-lane roads. We have no cell phone 
service. We have national forests. It is not an easy--
    Chairman Duffy. It is impossible.
    Ms. Rounsville. --feat to get try to get that.
    Chairman Duffy. Yes. It is impossible. And, right, you 
don't get an accurate count. And then, obviously, the dollars 
don't necessary flow.
    To the panel, is there a correlation between child 
homelessness and adult homelessness? Does that correlation 
actually exist? The panel agrees with that?
    Doesn't it make sense, then, especially when you have kids 
or young adults, the youth, that we try to address that problem 
early on and say, let's help these kids get into housing so 
they are not pulling resources in their adulthood from others, 
they are actually self-sufficient, let's start them off on the 
right path?
    Ms. Lilley, does that make sense to you?
    Ms. Lilley. It absolutely makes sense to me.
    I understand that we want to serve the most vulnerable, and 
I feel like, as a Nation, we are overlooking that the most 
vulnerable are the individuals that are experiencing 
homelessness that we can't see. They are not the people 
sleeping on the street. It is the youth that are being 
traumatized by the experiences--
    Chairman Duffy. I am sorry. The story that you tell about 
the kids in the hotel room, or your own story, who is more 
vulnerable than kids going through this process from their teen 
years into adulthood? Who is more vulnerable than that?
    I have a--and my time is up. As I have asked you all to be 
respectful of the red dot, I am too. So, with that, I am going 
to recognize Mr. Cleaver for 5 minutes. We will do a second 
round. Mr. Cleaver for 5 minutes, the Ranking Member.
    Mr. Cleaver. Thank you, Mr. Chairman.
    This is an important issue. And I want to reiterate 
something that Mr. Berg said earlier, and that is that I would 
prefer to believe--and I think I am actually correct--that 
there probably is not any person in here who is anti-help 
homeless individuals.
    I want to thank the gentleman from Ohio for taking the lead 
in this. It is always a very emotional issue with me. My wife 
and I had a homeless kid show up on our doorstep. And it had 
something to do with the NBA, one of the players. I won't go 
into it here. But he moved into our home, and because he went 
to school with our twin boys, all three of them went off to 
college together on basketball scholarships.
    And then I think it was May 11, Flight 592, ValuJet went 
down in the Everglades, and Jerrold was on that flight. I saw 
what he went through as a homeless kid, 15 years old--and I 
mean homeless. I don't mean--he wasn't staying with his 
grandmother or chose not to stay with his uncle. I mean with 
nothing, his clothing on his back.
    And so this is something that is very, very meaningful to 
me. And I want to express, in no small way, my appreciation for 
the Chairman for putting this on the docket and for Mr. Stivers 
and the people on the Democratic side who are working with him. 
I think it is the gentlewoman from Ohio who is also part of 
this bill.
    And so, for me, this is a worrisome issue. It is not easy 
to resolve, and we are going to have to struggle with it. It is 
not a question of whether or not these erratically housed 
families and youth deserve housing assistance. That is just not 
the issue. The issue, for me, is whether or not they should 
skip the line, ahead of other families and youth with other 
problems.
    I don't know if we will ever have enough money to resolve 
this issue. But we will never handle homelessness until we 
envision a Nation without homelessness and try to go there.
    So this legislation is not perfect, but I think the whole 
effort in Congress--and this is what I think all of us forget--
is that we are hopefully moving toward perfection. Nothing is 
perfect. We are moving in that direction. So I appreciate it.
    So if someone could address the issue I raised about 
whether or not putting people ahead in the line is something 
that we can figure out how to get around. I would love to have 
everybody in here supporting the same piece of legislation.
    Mr. Berg. Well, if I could start, I think it is extremely 
important to have clear goals and clear ideas about what kind 
of things the Continuum of Care is funding that get the best 
results and then really focus on getting the people who can 
benefit from that into those programs.
    At the same time, the Continuum of Care, as I said at the 
start, it is 4 percent of HUD's budget--4. There are a lot of 
other things that go into communities' responses to this issue, 
including other HUD funding, funding from other Federal 
agencies, lots of philanthropic funding. So there is a range of 
things that different people need, and it is possible to set up 
a system that provides people with what they need while still 
understanding that this one program, this one 4 percent, needs 
to be reserved for people who are in immediate danger.
    Because I think the rules of the Continuum of Care really 
are that people in immediate danger are covered. If the only 
place you have to live is with your kids with a registered sex 
offender, you are eligible right now. You are. You can't get 
help because--
    Ms. Lilley. You are eligible for one program, not the 
program that necessarily meets your vulnerability. That is 
ineffective and fiscally irresponsible.
    Mr. Berg. That is not about--that is not--this bill 
wouldn't help that.
    Ms. Lilley. But it would.
    Mr. Berg. This bill changes eligibility. It doesn't change 
what kinds of programs are available and what the community is 
doing.
    Ms. Lilley. The Ranking Member raised a very interesting 
question about whether or not this bill should be passed based 
on people skipping the line. And the bill isn't about people 
skipping the line or moving ahead in the line. The bill is 
addressing letting people join the line based on their 
vulnerability on the same scale as people who are outside.
    Currently, they can't even get in line. This isn't about 
jumping a line. It is about being able to stand in the same 
line for the appropriate resources based on their 
vulnerability, the same scale of vulnerability that people 
outside are being measured on.
    Mr. Cleaver. Now, I think the--well, let me reiterate. I 
support and, in fact, voted that we create the line in the 
first place. So, I don't want--I think we need to be careful as 
we are discussing something that almost everybody in here 
supports.
    Ms. Rounsville. Mr. Chairman, can I address the line 
quickly? Am I allowed to do that?
    I just want to talk about the line. Because we talk about 
vulnerable, and we are talking about the doubled-up 
individuals, and then we are talking about families in shelter. 
And I believe there is an impression that the families in 
shelter are already in the line.
    The threshold to meet for permanent support of housing that 
is chronically homelessness, you have to have an adult with a 
disability to meet that definition.
    So our shelters and families that are staying in the 
domestic violence shelter, while they may be at the bottom of 
the list, they are still not eligible, because to be 
chronically homeless, the adult has to have a disability.
    So it isn't just a matter of the couch-surfers not being 
able to get to the line. It is the families that are sitting in 
the line that we can't help because they are not meeting 
chronically homeless.
    Mr. Cleaver. I thank you for your generosity, Mr. Chairman.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Florida, Mr. 
Posey, for 5 minutes.
    Mr. Posey. Thank you very much, Mr. Chairman. And thank you 
for calling this hearing. Homelessness is not something that is 
on the radar every day, but it is a massive, massive problem, 
and I don't think anyone's districts are completely immune from 
it.
    Ms. Lilley, I think your written testimony and your verbal 
testimony may be some of the most compelling that I have heard 
so far. Thank you very much for that.
    I love Family Promise. My wife and I became aware of it, 
and we work through our church. And I know it is effective; I 
know what you are saying is the truth. It is another example of 
how much more productive, efficient, and effective privately 
operated functions can be than Government, monolithic, one-
size-fits-all, you-are-in-or-you-are-out structures that 
clearly have not seemed to have worked very well, or there 
wouldn't be a need for so many of the other organizations, such 
as yours.
    A question that demands an answer after reading all of your 
testimony, a couple times actually: How did you break the 
cycle? How did you free yourself and your family?
    Ms. Lilley. I was supported by Family Promise. And so I am 
actually the Deputy Director of the organization that served my 
family 4-1/2 years ago. So it was the support that allowed me 
through that process.
    And they extended a lot of grace to me. Emergency shelters 
generally will time a family out after 90 days and ask them to 
exit and then reapply if there is availability. I stayed in 
shelter straight for more than 6 months.
    I did receive assistance through Rapid Re-Housing on the 
back end of shelter to be able to house my family. And that 
supported me on my trajectory forward.
    Once I exited the shelter and was stably housed, I wanted 
to give back. And so I started volunteering with Family 
Promise. A year after exiting shelter, I became a staff member 
and have just climbed up the ranks ever since, and homelessness 
has become my life since.
    I think it is important to recognize in my personal story 
that I received some assistance that was HUD-funded that helped 
me overcome my situation. It was after 6-plus months in 
shelter. It was after an extreme amount of time of struggling. 
My special boy, during my homeless situation, had two more 
long-term hospitalizations because the process was stressful 
for him, as it was for me.
    But that HUD funding that helped me get back on my feet, I 
was able to utilize it before that 6-month mark. However, when 
you are looking at Rapid Re-Housing, I had to qualify for a 
landlord that was willing to take those funds and my family. As 
you can imagine, a lot of landlords look at an application and 
say, ``Currently homeless, six kids, lower income than it used 
to be a year ago,'' and they go, ``I think I will pass,'' 
especially when you are in communities with low vacancy.
    And so it took a long time for me to find a landlord 
willing to work with me, which is why that may not have been 
the most effective across-the-board intervention that we are 
offering to families.
    Mr. Posey. How would you specifically suggest we redefine 
homeless eligibility at HUD?
    Ms. Lilley. Specifically, I think that we need to broaden 
the definition to align with other Federal systems. We need to 
include the families that are doubled up. We need to include 
the families that are living in a motel.
    They are not stably housed. Most of these parents are out 
trying to figure out how they are going to pay for the motel 
room tomorrow. They are not sure how they are going to stay 
with a friend another week longer. They are sitting in bedrooms 
on floors with their children, telling them that they can't 
cry, telling them that they can't access the refrigerator 
because it is not their food.
    It is not a housing situation; it is a floor, it is a cot, 
it is a blanket. And it is not acceptable. We have to expand 
it. We have to truly work to serve the most vulnerable and 
acknowledge that just because a family has four walls around 
them, that doesn't mean that they are not vulnerable.
    There are a lot of assumptions that go into the Alliance 
saying that we're not--this expands it and we are no longer 
going to be serving the most vulnerable that they haven't done 
the research to back up. These families are vulnerable, they 
are being victimized, and they deserve a spot in the line for 
resources based on their vulnerability.
    Mr. Posey. If you could make one change besides the 
definition, what would that be?
    Ms. Lilley. I would allow communities to be able to use the 
resources that best fit their community dynamic and the current 
housing dynamic of that community. So if transitional housing 
is effective in a community and proven effective in a 
community, that HUD not prioritize it being defunded.
    Mr. Posey. Thank you.
    I see my time is up. Thank you, Mr. Chairman. I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the author of 1511, the gentleman 
from Ohio, Mr. Stivers, for 5 minutes.
    Mr. Stivers. Thank you, Mr. Chairman.
    And before I go to questions--I do want to ask a bunch of 
questions, but I want to acknowledge what Mr. Berg said 
initially, is while we may disagree on this individual issue, I 
want to thank you for your passion and what you are doing to 
combat homelessness, because we are all on the same side on 
that even if we disagree about a particular issue.
    And I want to acknowledge the folks back in Columbus, Ohio: 
Michelle Heritage, who I am sure you work with, Mr. Berg, who 
has been a friend of mine for 20 years, so I have known and 
worked with at Saint Vincent's and worked with her on combating 
homelessness at the Community Shelter Board. They are doing 
incredible work. They have been one of the most innovative 
organizations in the country; they continue to be. And while 
they may disagree with me on this issue, I consider them 
friends and know that we have the same goals in mind.
    So I want to continue on what Ms. Lilley was just talking 
about. And because the Ranking Member and because Mr. Berg have 
brought it up, I just want to be really clear what this bill 
does and doesn't do.
    This bill is about taking invisibly homeless people that 
are seen as invisible today--by the law, they are invisible. 
That is tragic. It is unacceptable. It produces very bad 
results for those people and allows them to be taken advantage 
of--and brings them into the light and allows them to be 
counted. That is what this bill does.
    It does not prioritize them, does not put them in line in 
front of anybody else. The communities can decide who they want 
to serve based on who has the most emergent need and who is in 
the most danger. But it brings those invisible people into the 
light. That is what we should be about.
    And then I am--I want to pledge to all of you, I will be 
fighting for resources.
    But I do want to start a few questions by asking Ms. 
Duffield, so tell me, does this bill require anybody to move to 
the front of the line?
    Ms. Duffield. No, it does not. It simply means you are 
eligible to be assessed on the same vulnerability indicators as 
anybody else. You are not to the front of the line. You are in 
the line. You are actually being seen by the same standards.
    And, again, my testimony provides data showing that these 
children are every bit as in dire straits as anybody else.
    Mr. Stivers. Thank you.
    And that is where I want to move to Ms. Lilley, on that, 
because you have been so eloquent already on this issue. Talk 
about how these invisibly homeless people can be and are taken 
advantage of today in the name of getting them housed by 
friends, family, strangers, and other folks, either financially 
or in other ways taken advantage of, and how that makes them 
vulnerable and how they are--help us understand why they are 
vulnerable people.
    Ms. Lilley. Absolutely.
    As we all know, people who are feeling desperation make 
choices out of that desperation, and they are not always 
choices that align with the end goal or that are safe choices 
to make.
    We see families who are able to pay for a motel this week 
and next week come up $30 short, so they are outside and they 
are asking people to come up with that money. And then someone 
will walk up to them and say, ``You know what? I have 30 bucks. 
Let me join you in your room.'' So now a stranger has joined 
these children in a room because a family needed $30 to pay for 
next week. And that is introducing the children to new, unknown 
dangers.
    Also, when we are talking about community systems, 
community systems are important when we are looking at the 
human need for community. And when we are talking about family 
homelessness and children homelessness, it is very isolating. 
When you have families who are in shelter, there is a community 
there. Parents in a shelter look out for each other. They 
support each other. They cheer each other on.
    Families who are experiencing homelessness in a motel or a 
situation where they are staying with others, it is not 
generally family. It is not generally grandma and grandpa. It 
is not generally aunt or uncle. A lot of times, it is strangers 
that happen to offer a place to stay. A lot of times, it is 
people that were in the past with a family who now have a place 
to stay.
    I currently--it breaks my heart to say, I have a mom and a 
dad with a 3-week-old baby that on Monday decided to move in 
with someone they met 3 hours prior, because that was a better 
choice for them than going to the shelter with their vulnerable 
baby. That is not safe.
    Mr. Stivers. Wow.
    Ms. Lilley. They are not considered homeless anymore. And 
they are in dire need for that baby, who is at a key 
developmental stage and will be for the next 3 years, for an 
intervention to be offered.
    So we are forcing families--we are telling families, ``You 
are not homeless enough to help.'' And then we are faulting 
them for being in situations that aren't safe and keeping them 
in the shadows, when we are trying to draw them out so that we 
can help, so that we can assist. We want them to see the 
friendly face that says, ``You are not alone. It can be OK.''
    Mr. Stivers. And I know I am basically out of time, but if 
I could just have each of the panel members, one at a time, say 
whether they believe these children should be counted or hidden 
in homelessness.
    Ms. Duffield. They should be seen and served.
    Mr. Berg. I think the more data we have about all these 
problems, the better. So, certainly, if we can get information 
about who is living in what situations, that would be 
excellent.
    Ms. Lilley. Counted and served.
    Ms. Rounsville. Counted and served.
    Mr. Stivers. Thank you.
    I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Rothfus, for 5 minutes.
    Mr. Rothfus. Thank you, Mr. Chairman. I want to thank you 
for calling today's hearing.
    And I would like to commend Representative Stivers for his 
hard work on this important issue.
    The Homeless Children and Youth Act addresses a number of 
problems with our current approach to homelessness, but I want 
to start by focusing on one in particular. As HUD has 
prioritized one-size-fits-all mandates, like Housing First, and 
connected those priorities to funding, it has pushed 
communities to move away from programs and strategies that 
actually work.
    As a result, local organizations have lost out on necessary 
funding or have been forced to change their model. Ultimately, 
this hurts the very people we are trying to help: The poor, the 
vulnerable, and those in need of a helping hand.
    One of the organizations that has been harmed is the HEARTH 
organization in my district. HEARTH is a transitional housing 
provider focusing on women fleeing domestic violence. Due to 
the one-size-fits-all approach pushed by HUD, HEARTH has faced 
pressure to completely change its model or risk losing funding. 
This is unfair to the western Pennsylvania families that need 
HEARTH in their community.
    And I want to enter their statement on the Homeless 
Children and Youth Act into the record.
    Mr. Chairman, if I could offer a statement from HEARTH into 
the record on the Homeless Children and Youth Act.
    Chairman Duffy. Without objection.
    Mr. Rothfus. Ms. Lilley, you have both personal and 
professional experience with your homelessness relief programs. 
Could you comment on what happened in your community when HUD 
prioritized Rapid Re-Housing and permanent supportive housing?
    Ms. Lilley. Absolutely. I actually sit on the Ranking and 
Prioritization Committee on my Continuum of Care, so I know 
exactly the decisions that were made to try and meet the 
competitiveness of the COC.
    In my community, we have only a couple transitional housing 
programs. One of them specifically serves families with 
children. We have My Transitional Housing Program, which is 
exclusively privately funded; I don't ask for HUD money for it.
    And then we have a transitional housing program that--it is 
a borderline. Under HUD's definition, it is considered 
transitional housing. However, it truly hits an emergency need 
for unaccompanied women in our community, in that it only 
serves women, and it is a short-term transitional housing 
program. It maxes at 6 months instead of the 2 years for the 
most markers.
    When HUD pushed the prioritization, saying that we really 
needed to focus on Rapid Re-Housing and that we really needed 
to focus on permanent supportive housing, as you can imagine, 
these are things that we would love to expand in our community, 
but they take infrastructure. And infrastructure takes time to 
develop, especially when you are talking about permanent 
supportive housing, which requires units, a lot of units, to 
meet that need.
    Our Continuum of Care looked at how we were meeting that 
need and decided that, to stay competitive as a continuum, 
although our family transitional housing program, which was 
large, was high-performing, had highly successful outcomes and 
lower recidivism rates, we had to remove funding from that 
program and reallocate it to a different program. It was 
actually a new program, so we weren't sure how that was going 
to play out, but it matched the HUD priority. As a result, this 
transitional housing program had to struggle the next year to 
backfill the funding that was removed from them.
    In my community, the women's transitional housing program 
in this last go-around, they did not receive COC money because 
of the HUD priority. And, in addition, because the city has 
decided to align with the HUD priorities for ESG and CDBG 
(Community Development Block Grant) money as well, they did not 
receive their ESG or CDBG money either. That shelter closed 
last week.
    Mr. Rothfus. Ms. Rounsville, I understand the transitional 
housing project in your area lost Federal support as a result 
of HUD's push to deprioritize transitional housing.
    Does transitional housing have a good track record in your 
area?
    Ms. Rounsville. Transitional housing in our world was 
ideal. We held the lease. We could take high-barrier families. 
Landlords had worked with our agency for 50 years, so we didn't 
have a problem with getting that housing provided.
    The Rapid Re-Housing is also a good model, but it is not a 
one-size-fits-all. Having the Rapid Re-Housing, especially 
under the stimulus--we had about $900,000 for 2 years, as 
opposed to now we get, like, $60,000 for 2 years. But having 
those two services available in the community really 
complemented each other.
    We had our high-barrier families where you are the single 
mom that is 21 with five kids. Transitional housing gave us 
more time. It had intensive case management. They could seek 
mental services or if they had kids with disabilities, 
addiction counseling, those sort of things.
    Versus the Rapid Re-Housing model--ideally, it works best 
for first-time homeless, low-barrier. Rapid Re-Housing would be 
an ideal program for the issue that we face with our foster 
care system. Our families that have their children removed, 
placed in foster care, we have our human services that have a 
group of those. If those people could just find housing, they 
could get their kids back. That is not a program--they are not 
eligible for our services.
    But if we could take a program like Rapid Re-Housing and 
target it, or transitional housing, to that population, we 
could bring our families back together, we could support our 
families, as opposed to increasing the number of children 
remaining in foster care that as teenagers are either running, 
staying with other people, or they are aging out of foster care 
and then we are hitting on the other end as chronic homeless 
later on.
    Mr. Rothfus. Thank you.
    I yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair recognizes the gentleman from Michigan, Mr. 
Trott, for 5 minutes.
    Mr. Trott. I want to thank the Chairman and the Ranking 
Member for organizing this hearing today and also thank the 
panel for your time today but also and perhaps more importantly 
for all the good work you no doubt do every day back in your 
communities.
    Mr. Berg, so all of the other panelists have disagreed with 
your assertion that someone who is in a situation, a drug den 
or an abusive situation or maybe a potentially trafficking 
situation is eligible for the COC program. Do you stand by your 
position in that regard?
    Mr. Berg. Yes, absolutely. I would recommend the committee 
get HUD in here and let them explain all the rules that they 
have in place.
    Let me just be clear, though, we are talking about 
eligibility because this bill addresses eligibility. The 
program is not funded well enough--
    Mr. Trott. Let's talk about that in a minute.
    Mr. Berg. --to help everyone who is eligible. So that is a 
separate problem. And that is why a lot of people who need help 
aren't getting it.
    Mr. Trott. So the other panelists are just wrong with 
respect to their definition of eligibility. Is that what you 
are saying?
    Mr. Berg. I think that to the extent that they have said 
what you said, that is not correct.
    Mr. Trott. You said that HUD needs to ascertain what 
programs are working and this bill undermines that. How does it 
do that?
    Mr. Berg. Well, several provisions in the bill would 
prohibit HUD from setting various kinds of priorities, even 
though Congress has been quite clear over 20 years that they 
want HUD to set priorities based on what works best.
    Mr. Trott. OK. So that is the basis for that conclusion.
    Mr. Berg. That and also the concern that, by massively 
expanding who is eligible for the program, there would be an 
overwhelming effect that would prevent--
    Mr. Trott. Would you be supporting the bill if there was 
more funding?
    Mr. Berg. That is hard to say.
    Mr. Trott. I am trying to determine whether really your 
opposition is based on lack of resources or some other, more 
fundamental concern.
    Mr. Berg. The fundamental concern is that this program has 
a very specific purpose, which is to quickly get people who are 
in immediate danger because of their housing situation out of 
that.
    There are a lot of other people, millions of people, who 
are being hurt by the fact that they don't have decent housing. 
I think there are other approaches to that that would work 
better to fix that problem.
    Mr. Trott. I appreciate that.
    Do you agree with Ms. Rounsville's concern that the 
program, as currently configured, favors urban areas over rural 
areas?
    Mr. Berg. I am concerned about that. I can't say definitely 
yes or no, but it is definitely a concern of ours.
    Mr. Trott. So this is to the entire panel.
    Ms. Lilley, you have already responded quite eloquently, 
and your comments I found to be very powerful and persuasive. 
So you can certainly add in another suggestion besides 
community flexibility, but this is for the entire panel.
    The COC program, what one or two changes would you make, 
other than the debate we are having regarding the eligibility 
definition?
    Ms. Duffield. I think the Homeless Children and Youth Act 
does what needs to be done, which is to go back to the original 
purpose of the COC, which is to really have the communities 
figure out what they need, as opposed to having HUD tell them 
what they need.
    So if those projects were scored based on a local plan and 
local plans that will identify whether they were for a local 
plan, then we would see a flexible, effective system. But right 
now it is a very heavy-handed system. There is no competition. 
The only competition is how well you can meet HUD's priorities.
    Ms. Rounsville. I would agree with that. I think, in terms 
of the Continuum of Care process, if there was an opportunity 
to bring back programs like transitional housing that we knew 
worked within our communities, or if there was a way that our 
local communities could look at what our needs are--as I have 
talked about, in a 69-county area, trying to do a coordinated 
entry system that is identical through a 69-county area using a 
screening tool that maybe your local groups don't agree with 
but another community wants, there are so many pieces that are 
required now in this geographic area, and when it becomes a 69-
county area, it is very difficult to get everybody across that 
spectrum to follow one-size-fits-all.
    If there was flexibility that local communities or local 
regions could each have their own process and prioritize what 
our needs are, that would make sense. And maybe in another 
community, chronic homeless is their focus, and they need to 
continue serving that population. But that doesn't preclude 
another group within the Continuum of Care from serving 
children in foster care, homeless and runaway youth, or other 
populations that may be what our highest need is.
    Mr. Trott. Great. Thank you.
    I will yield back.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Thank you, as well, to 
the Ranking Members and the witnesses.
    I would like to visit with you about empirical evidence. 
What I would like to know first is, are we spending too much 
money on homelessness? If we are and you believe we are, would 
you kindly extend a hand into the air?
    Please allow the record to reflect that none of the 
witnesses have extended a hand into the air.
    Mr. Berg. Could I just extend one finger in the air? 
Because we are spending a lot of money on homelessness, not to 
solve it, but to deal with it and manage it. Jails are spending 
money on homelessness. Mental health systems are spending money 
on homelessness. We are spending a lot of money on not solving 
the problem.
    Mr. Green. Are we spending too much is the question.
    Mr. Berg. We are spending too much money not solving the 
problem. We are not spending nearly enough to solve the 
problem.
    Mr. Green. Because we are not helping enough people, does 
that mean that we are wasting money? If you think so, would you 
kindly extend a hand into the air?
    Let me continue then.
    If you think we are wasting money, give me one empirical 
piece of evidence of how we are wasting it.
    I think, Ms. Lilley, you had some evidence?
    Ms. Lilley. Well, I do.
    So Mr. Berg continues to say that the families that we are 
trying to expand this definition to serve are already able to 
be served under the Continuum of Care. And what I keep 
reiterating is that they are not able to be served adequately 
based on their vulnerability score, which is fiscally 
irresponsible.
    Because we are saying that if you want assistance and you 
need assistance, we can offer you one form of assistance, 
regardless of whether or not your family has a chance of that 
form of assistance--
    Mr. Green. A quick follow up, if I may, Ms. Lilley.
    Ms. Lilley. Yes.
    Mr. Green. Are you indicating that because we are helping 
some and we are not helping others that that is a waste of 
money?
    Ms. Lilley. I am indicating that because we cannot--
    Mr. Green. I didn't quite get the answer to my question. 
Are you indicating that because we are helping others who need 
help that we are wasting money?
    Ms. Lilley. No.
    Mr. Green. OK.
    Now, here is where I think we are. I think we are victims 
of a lilliputian conviction that the poor can do more with less 
and that the rich need more to do more.
    It really is painful to see you at odds with each other 
because we have decided that there is a finite amount of money 
that is available. It is very painful to see this happening, 
especially given that we are the richest country in the world, 
especially given that we continually tout the expanding economy 
and we talk about how great Wall Street is doing and how people 
are faring so well. To see you have to combat each other over 
some--did you say 4 percent, Mr. Berg?--4 percent of HUD's 
budget, 4 percent, when, the truth be told, we need to expand 
the budget.
    Now, I know that there are those who would say that if you 
pass this bill we will expand the budget because we will 
appropriate the funds at the appropriate time. Well, there are 
ways to ascertain what will be needed for that appropriate time 
before we pass the bill.
    I believe that we ought to help every person that you have 
called to our attention, Ms. Lilley. I really do. I think yours 
is a noble cause. It is not a quixotic effort. It is noble.
    And, Mr. Berg, I believe you want to make sure that all the 
people who have been getting help continue to get help. But 
with this lilliputian theology--and it is almost a theology; 
not really--but this belief that the poor can do more with 
less, keep the finite amount of money, but expand the number of 
people who need it, and then have the debate that I see here 
today, which is very painful, very painful.
    I yield back the balance of my time.
    Chairman Duffy. The gentleman yields back.
    The Chair now recognizes one of the coauthors and sponsors 
of this legislation, the gentlelady from the great State of 
Wisconsin, Ms. Moore, for 5 minutes.
    Ms. Moore. Thank you so much, Mr. Chairman.
    And I do want to thank the witnesses and apologize for my 
late arrival, but I am very, very interested in this topic.
    And I just want to associate myself with some of the 
comments that the gentleman from Texas just made, because it is 
painful to recognize that there is a dearth of funding to 
address this bill.
    I guess I have a comment before I ask any questions. I have 
found myself 67 years old, and, I am a person who has always 
had a sea of income--I have had an island of income in a sea of 
need. And so friends and family and strangers and others--I 
have taken in many homeless people. And the minute you take 
them in and they get a place on your couch for a night, they 
are no longer considered homeless, even though you are unable 
to extend that beyond a few days. And so that was, of course, 
my interest in this bill.
    I also understand the plight of runaway youth. And children 
in my community--we have one in four kids who go to bed hungry 
every night, so those folks who would qualify under the Child 
Nutrition Act.
    But I am empathetic with the notion that we are scrambling 
over crumbs that are falling from the master's table. And this 
bill has been very well-intentioned over the years, but it has 
never come with the commitment to actually fund these programs.
    I am wondering, Mr. Berg--and forgive me if you are going 
to be repeating yourself because I was absent, but do you have 
some sense of how we can prime the pump to really meet the 
needs of all homeless people?
    And I do believe that you sincerely want to see us address 
homelessness. You mentioned we are spending money but we are 
not addressing it. Can you just share with me what you think 
would be worthy of our consideration?
    Mr. Berg. Sure. Absolutely.
    And thank you, Ms. Moore. I know you were a great proponent 
of the HEARTH Act a few years ago--
    Ms. Moore. Yes.
    Mr. Berg. --that changed the eligibility rules, expanded 
the eligibility rules.
    But really what we are looking at in terms of a broader 
housing campaign, we are working with a lot of different 
organizations, including people from the education field, the 
healthcare field, to address the problem that we all recognize, 
that people don't have housing that they can afford. Whether 
they end up homeless as a result or whether they end up on your 
couch, they still need help.
    We need more investment in rent subsidies. We need more 
building of houses that are affordable to people with those 
rent subsidies. And we need short-term help too. I mean, this 
is something that a lot of communities are understanding. They 
are looking--
    Ms. Moore. So I guess what you are saying is that this is a 
well-intentioned bill, but there are some things we need to do 
preliminarily. Is that what you are suggesting?
    Mr. Berg. Yes. I mean, thinking you can really solve these 
problems by changing the eligibility rules in this little 
homeless program, that is not--
    Ms. Moore. I mean, for example, I was stunned to learn just 
recently--we haven't raised the minimum wage in a dozen years. 
And I don't care how hard you work, there is no housing 
anywhere in the United States of America, urban, rural, ex-
urban, a person cannot afford a two-bedroom apartment anywhere 
in America off a minimum wage job. So they are at risk of 
homelessness.
    So when you expand eligibility, if I am hearing you 
correctly, you may be bringing in a universe of people who earn 
the minimum wage. Is that--
    Mr. Berg. Right.
    Ms. Moore. --a takeaway?
    Mr. Berg. Right.
    Ms. Moore. OK.
    Any of the rest of you have anything to offer in my 8 
seconds?
    Ms. Duffield. I would like to comment.
    We are aligning definitions. This isn't adding millions of 
people. We are actually talking about creating efficiencies.
    Ms. Moore. OK.
    Ms. Duffield. The HEARTH Act changes didn't work, or we 
wouldn't be here. Those categories that were added are not 
meeting the needs of the most vulnerable. We are actually 
creating a system that is so complicated that we spend millions 
of dollars on technical assistance to figure it out. We have 
flowcharts, like this, for the definition of chronic 
homelessness.
    So what is the better use of time? Documenting all of this, 
figuring out the three layers, figuring out all the regulations 
HUD added on to those categories, or talking to a school social 
worker who knows the child, talking to a Runaway and Homeless 
Youth Act program who knows the child? What is a better use of 
time? Taking advantage of existing systems that have identified 
these kids already and helping them collaborate better and 
leverage services, or running around documenting their status 
and all the many hoops that HUD has put before these children?
    Ms. Moore. I can see that my time has expired. I just want 
to thank the Chairman for his generosity, and I yield back.
    Chairman Duffy. The gentlelady yields back.
    Here, here, Ms. Duffield. Thank you very much.
    I want to thank our panel. This has been wonderfully 
informational. I actually appreciate the debate that you all 
had. That is actually helpful to us. It is inspiring that we 
can go back and forth and hear a rigorous conversation. So 
thank you.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    Without objection, this hearing is now adjourned.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]

                            A P P E N D I X



                              June 6, 2018

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
                                 
                                 
</pre></body></html>
